Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





     OHIO DID NOT ALWAYS 

   PROPERLY CLAIM MEDICAID 

     REIMBURSEMENT FOR 

       HOSPICE CLAIMS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                                    Sheri L. Fulcher 

                                               Regional Inspector General 


                                                         May 2014

                                                       A-05-12-00087 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                     EXECUTIVE SUMMARY 


 Ohio did not always properly claim Federal Medicaid reimbursement for hospice claims.

WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. The goal of such care is to
achieve the highest quality of life as defined by the patient and his or her family through the
relief of suffering and control of symptoms. Previous Office of Inspector General reviews found
that States did not always comply with Federal and State requirements for hospice claims.

The objective of this review was to determine whether Ohio properly claimed Federal Medicaid
reimbursement for hospice claims submitted by hospices in Ohio.

BACKGROUND

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

In Ohio, the Department of Job and Family Services (the State agency) administers its Medicaid
program in accordance with the Centers for Medicare & Medicaid Services (CMS) approved
State plan. The State plan establishes what services the Medicaid program will cover including
hospice care. To be eligible to elect hospice care under the Medicaid program, an individual
must be certified by a physician as terminally ill. An individual is considered to be terminally ill
if the individual has a medical prognosis that his or her life expectancy is six months or less. If
an individual elects to receive hospice care, he or she must file an election statement with a
particular hospice.

For hospice services to be covered under Medicaid, services must be provided in accordance
with the State Medicaid Manual (the Manual) issued by CMS. The Manual specifies the
requirements for: proper pricing procedures, physician certification, the use of licensed workers,
provider reimbursement at the proper amount and level of care, and election statement content.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims of $100 or more paid to Ohio hospices during
the 2-year period July 1, 2009, through June 30, 2011. For the purpose of this report, we will
refer to Medicaid costs for room and board or hospice care services, or both, paid for one
beneficiary during a month as a claim. From a total of 103,668 hospice claims totaling
approximately $388 million ($282 million Federal share), we reviewed a random sample of 100
hospice claims totaling $382,408 ($278,616 Federal share) from 48 Ohio hospices.




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)           i
WHAT WE FOUND

The State agency did not always properly claim Federal Medicaid reimbursement for hospice
claims. Of the 100 sampled claims, the State agency properly claimed Federal Medicaid
reimbursement for 84 claims. The State agency did not properly claim Federal Medicaid
reimbursement for the 16 remaining claims. However, the unallowable dollar amounts related to
these 16 claims are immaterial.

For the 16 improper claims, the hospices:

    	 did not claim the correct room and board rate (9 claims),

    	 did not properly apply the patient liability portion to the claimed room and board amount
       (7 claims), and

In addition, hospices did not always meet election statement requirements. Of the 100 claims
reviewed, hospices met the election statement requirements for 40 claims. Hospices did not meet
the election statement requirements for the remaining 60 claims. For these claims, the hospices:

    	 did not maintain a Medicaid election form on file (46 claims), and

    	 did not ensure election statements contained required language (14 claims).

A dually eligible beneficiary must elect both Medicare and Medicaid hospice benefits. However,
for Medicaid payment, claims for room and board are not considered hospice benefits. Therefore,
we did not take exception to the 60 claims or estimate an error rate or improper payment amount.
The election statement deficiencies occurred because the State agency did not have a uniform
election statement for use state-wide by all hospices.

WHAT WE RECOMMEND

We recommend that the State agency:

    	 ensure that hospice claims are processed correctly, and adjusted when necessary, to meet
       Medicaid reimbursement requirements;

    	 monitor hospices to ensure that Federal and State requirements are met with regard to
       election statement content; and

    	 establish a uniform election statement to be used state-wide by all hospices and ensure
       that all required language is included in the statement.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency concurred with our recommendations
and provided information on actions that it plans to take to address our recommendations.


Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)     ii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1 


           Why We Did This Review ................................................................................................1 


           Objective ........................................................................................................................... 1 


           Background ....................................................................................................................... 1 

                 The Medicaid Program: How It Is Administrated and 

                   What Hospice Services It Covers ......................................................................1 

                 Hospices Provide Care to Terminally Ill Patients and Patient Eligibility .............1 

                 How Hospice Care Services Are Reimbursed Under the Medicaid Program ......2 


           How We Conducted This Review.....................................................................................2 


FINDINGS.................................................................................................................................... 3 


           Hospices Did Not Claim the Correct Room and Board Rate............................................4 


           Hospices Did Not Properly Apply the Patient’s Liability Portion to the Claimed Room 

             and Board Amount ........................................................................................................4 


           Hospices Did Not Meet Election Statement Requirements ..............................................5 


RECOMMENDATIONS ..............................................................................................................5 


STATE AGENCY COMMENTS.................................................................................................6 


APPENDIXES 


           A: Audit Scope and Methodology ...................................................................................7 


           B: Federal and State Requirements for Hospice Care .....................................................9 


           C: State Agency Comments ...........................................................................................11 





Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)                                                       iii
                                           INTRODUCTION 


WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. The goal of such care is to
achieve the highest quality of life as defined by the patient and his or her family through the
relief of suffering and control of symptoms. Previous Office of Inspector General reviews found
that States did not always comply with Federal and State requirements for hospice claims.1

OBJECTIVE

Our objective was to determine whether Ohio properly claimed Federal Medicaid reimbursement
for hospice claims submitted by hospices in Ohio.

BACKGROUND

The Medicaid Program: How It Is Administered and What Hospice Services It Covers

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the Medicaid program. In Ohio, the Department of Job and Family Services (the
State agency) administers its Medicaid program in accordance with the CMS-approved State
plan. The State plan establishes what services the Medicaid program will cover including
hospice care when it is provided by a licensed hospice.

Hospices Provide Care to Terminally Ill Patients and Patient Eligibility

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

A Medicaid participating hospice meets the Medicare conditions of participation for hospices
and has a valid provider agreement. To be eligible to elect hospice care under the Medicaid
program, an individual must be certified by a physician as terminally ill. An individual is
considered to be terminally ill if the individual has a medical prognosis that his or her life
expectancy is six months or less if the illness runs its normal course. If an individual elects to
receive hospice care, he or she must file an election statement with a particular hospice.

1
  U.S. Department of Health and Human Services, Office of Inspector General, report number A-01-10-00004
entitled Review of Medicaid Hospice Payments Made by Massachusetts for State Fiscal Years 2007 and 2008,
issued February 18, 2011; A-01-10-00012 entitled Review of Medicaid Hospice Payments to Evercare Hospice &
Palliative Care for State Fiscal Years 2007 Through 2009, issued September 23, 2011; A-01-11-00005 entitled
Rhode Island Did Not Always Comply With State Requirements on Medicaid Payments for Hospice Services, issued
March 26, 2012; and A-01-12-00002 entitled Rhode Island Hospice General Inpatient Claims and Payments Did
Not Always Meet Federal and State Requirements, issued August 13, 2012.


Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)               1
How Hospice Care Services Are Reimbursed Under the Medicaid Program

A hospice is reimbursed for each day that an individual is under its care based on the type and
intensity of the services, or level of care furnished to the individual for that day. The different
levels of care include, but are not limited to, continuous home care and routine home care.

For continuous home care, the amount of payment is determined based on the number of hours
of continuous care furnished to the individual for that day. A minimum of 8 hours per day must
be provided. Routine home care is paid without regard to the volume and intensity of services
provided on any given day. A hospice is paid at the routine home care rate for each day that an
individual is under its care and does not qualify at another rate.

When hospice care is furnished to an individual residing in a nursing facility, the hospice is paid
an additional amount to take into account the expense of the room and board furnished by the
facility. The amount that the hospice is paid is equal to ninety-five percent (95%) of the State
agency’s calculated per diem rate for basic care at that nursing facility, minus any applicable
patient contribution. States are required to reduce payments to a hospice for services provided to
certain Medicaid-eligible individuals by amounts deducted from an individual’s income to pay
for medical expenses.2 In Ohio, this amount is referred to as the patient liability.

For hospice services to be covered under Medicaid, services must be provided in accordance
with the State Medicaid Manual (the Manual) issued by CMS. The Manual specifies the
requirements for: proper pricing procedures, physician certification, the use of licensed and
qualified workers, provider reimbursement at the proper amount and level of care, and election
statement content.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims3 of $100 or more paid to Ohio hospices
during the 2-year period July 1, 2009, through June 30, 2011(audit period). From a total of
103,668 hospice claims totaling approximately $388 million ($282 million Federal share), we
reviewed a simple random sample of 100 hospice claims totaling $382,408 ($278,616 Federal
share) from 48 Ohio hospices. A claim represented the Medicaid costs for room and board (94
claims) or hospice services (3 claims), or both (3 claims), paid for one beneficiary during the
month.4

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

2
 The amount deducted from each individual’s income is based on the individual’s total income, a personal needs
allowance, and other considerations specified in regulation 42 CFR § 435.832.
3
 For the purpose of this report, we will refer to Medicaid costs for room and board or hospice care services, or both,
paid for one beneficiary during a month as a claim.
4
 Of the 100 sampled claims, 94 room and board claims were for dually eligible beneficiaries. The remaining 6
hospice service claims relate to Medicaid only beneficiaries.


Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)                         2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains
excerpts from the Manual detailing, among other things, the content requirements for the election
statement and from the Ohio Administrative code regarding Ohio hospice reimbursement and
election form requirements.

                                              FINDINGS

The State agency did not always properly claim Federal Medicaid reimbursement for hospice
claims. Of the 100 sampled claims, the State agency properly claimed Federal Medicaid
reimbursement for 84 claims. The State agency did not properly claim Federal Medicaid
reimbursement for the 16 remaining claims. However, the unallowable dollar amounts related to
these 16 claims were immaterial.

For the 16 improper claims, the hospices:

    	 did not claim the correct room and board rate (9 claims),

        did not properly apply the patient liability portion to the claimed room and board amount
        (7 claims), and

The improper claims occurred because the State agency did not adequately monitor hospices for
compliance with State requirements related to the processing of the claims and having proper
election forms.

Additionally, hospices did not meet election statement requirements related to 60 claims
sampled. Specifically, hospices:

    	 did not maintain a Medicaid election form on file (46 claims), and

    	 did not maintain a Medicaid election form containing the required election statement
       language (14 claims).

Pursuant to the CMS Medicare Benefit Policy Manual, Chapter 9, § 20.3, a beneficiary who is
dually eligible must elect both Medicare and Medicaid hospice benefits if the State offers
hospice benefit under its Medicaid program. This section sets requirements for Medicare
payments of hospice services and does not affect Medicaid payments for room and board claims.
Therefore, we did not take exception to the 60 claims or estimate an error rate or improper
payment amount. The election statement deficiencies occurred because the State agency did not
have a uniform election statement for use state-wide by all hospices.




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)    3
HOSPICES DID NOT CLAIM THE CORRECT ROOM AND BOARD RATE

For 9 hospice room and board claims, hospices billed and the State agency processed an
incorrect rate when pricing and paying hospice claims as required.5

For 5 of the room and board claims, hospices used a previous period’s nursing facility room and
board per diem rate instead of the applicable rate for the time period.

      	 For example, one provider used the previous fiscal year’s rate of $188.16 instead of the
         nursing facility per diem rate of $186.44 applicable to that particular fiscal year to
         calculate the monthly room and board reimbursement. The provider should have billed
         95 percent of $186.44 for each day of the 31-day patient stay. As a result, the State
         agency paid the provider $5,542 when it should have paid $5,491, an overpayment of
         $51.

For the remaining 4 room and board claims, the hospices billed the room and board per diem rate
at 100 percent of the nursing facility’s per diem rate instead of the required 95 percent.

      	 For example, one provider billed the full 100 percent of the nursing facility rate of
         $169.87 per day for the patient’s 31-day stay, instead of 95 percent of the rate, or
         $161.38, less the patient liability portion of $698. As a result, the State agency paid the
         provider $4,568 when it should have paid $4,305, an overpayment of $263.

HOSPICES DID NOT PROPERLY APPLY THE PATIENT LIABILITY PORTION TO
THE CLAIMED ROOM AND BOARD AMOUNT

For 7 hospice room and board claims, hospices billed and the State agency processed hospice
claims that contained improperly applied patient liability amounts.

      	 For 4 of the room and board claims, hospices did not subtract the patient liability amount
         from the room and board claim. For example, one provider billed 95 percent of the
         nursing facility per diem rate of $220.73 for the patient’s 13-day stay. However, the
         provider did not subtract the patient’s liability of $557 from the bill. As a result, the State
         agency paid the provider $2,726 when it should have paid $2,169, an overpayment of
         $557.

      	 For 2 of the room and board claims, hospices billed an incorrect patient liability amount.
         For example, another provider’s billing software was not able to calculate and
         appropriately subtract the entire patient’s liability amount. The provider subtracted a
         patient liability amount of $2,213 from the total room and board claim, instead of the
         appropriate $2,354. As a result, the State agency paid the provider $3,318 for room and
         board, when it should have paid $3,177, an overpayment of $141.

5
    Ohio Administrative Code (chapter 5101:3-56-06 (C)(1)).



Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)           4
      	 For the remaining 1 claim, the hospice incorrectly applied the patient liability portion of
         $957 to 100 percent of the rate of $199.84 before multiplying by the 95 percent of the
         rate ($189.85) for the patient’s 31 day stay. As a result, the State agency paid the provider
         $4,976 when it should have paid $4,928, an overpayment of $48. .

Hospices attributed the incorrect room and board payments and the patient liability errors to
clerical errors and to computer software that could not calculate partial day billings for patient
liability.

HOSPICES DID NOT MEET ELECTION STATEMENT REQUIREMENTS

For 60 room and board claims, hospices did not meet the election statement requirements of the
Manual, as follows:

      	 For 46 claims, the hospice election statement did not state that the beneficiary was 

         electing the Medicaid hospice benefit 


      	 For 14 room and board claims, the Medicaid hospice election statement did not include a
         waiver of all rights to Medicaid payments for services.6

Pursuant to the CMS Medicare Benefit Policy Manual, Chapter 9, § 20.3, a beneficiary who is
dually eligible must elect both Medicare and Medicaid hospice benefits if the State offers
hospice benefit under its Medicaid program. This section sets requirements for Medicare
payments of hospice services and does not affect Medicaid payments for room and board claims.
Therefore, we did not take exception to the 60 claims or estimate an error rate or improper
payment amount. The election statement deficiencies occurred because the State agency does
not have a uniform election statement used state-wide, which, if adopted, would ensure the
required language is included in the election statements.7

                                           RECOMMENDATIONS

We recommend that the State agency:

      	 ensure that hospice claims are processed correctly, and adjusted when necessary, to meet
         Medicaid reimbursement requirements;

      	 monitor hospices to ensure that Federal and State requirements are met with regard to
         election statement content; and



6
    CMS State Medicaid Manual § 4305.2, see Appendix D.
7
 States with uniform election statements include, but are not limited to, Connecticut, Florida, Mississippi, Missouri,
and New Jersey.



Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)                         5
    	 establish a uniform election statement to be used state-wide by all hospices and ensure
       that all required language is included in the statement.

                                 STATE AGENCY COMMENTS

In written comments to our draft report, the State agency concurred with our recommendations
and provided information on actions that it plans to take to address our recommendations. The
State agency’s comments are included in their entirety as Appendix C.




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)     6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


For the audit period, we limited our review to Medicaid payments made by the State agency to
hospices for hospice care provided to Medicaid beneficiaries as authorized under the State plan.
We excluded claims in which the paid amount was less than $100.8

After taking into account the exclusions above, we determined that the State processed and paid
103,668 Medicaid hospice claims totaling $388 million ($282 million Federal share) for hospice
care provided during the audit period. We reviewed a random sample of 100 claims. A claim
represented the Medicaid costs for room and board (94 claims) and hospice services (3 claims),
or both (3 claims), paid for one beneficiary during the month.9

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at 48 individual hospices around the State of Ohio.

METHODOLOGY

To accomplish our objective, we:

    	 reviewed applicable Federal and State laws, regulations, and guidance;

    	 held discussions with State agency officials to gain an understanding of the State 

       agency’s hospice care program; 


    	 obtained Medicaid paid claims for service dates during the audit period, from the State
       agency;

    	 identified a sampling frame of 103,668 hospice claims, totaling $387,987,282 

       ($281,895,275 Federal share); and 


    	 selected a simple random sample of 100 hospice claims from our sampling frame, and for
       each claim, obtained and reviewed the related hospice documentation to determine
       whether hospice care was provided in accordance with Federal and State requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


8
 For the purpose of this report, we will refer to Medicaid costs for room and board or hospice care services, or both,
paid for one beneficiary during a month as a claim.
9
 Of the 100 sampled claims, 94 room and board claims were for dually eligible beneficiaries. The remaining 6
hospice service claims relate to Medicaid only beneficiaries. .


Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)                         7
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)   8
                 APPENDIX B: FEDERAL AND STATE REQUIREMENTS

                               FOR HOSPICE CARE


FEDERAL ELECTION STATEMENT CONTENT REQUIREMENTS

Pursuant to section 4305.4 of the Manual, to be covered, a certification that the individual is
terminally ill must have been completed as set forth in § 4305.1 and hospice services must be
reasonable and necessary for the palliation or management of the terminal illness and related
conditions. The individual must elect hospice care in accordance with § 4305.2….

Pursuant to section 4305.2 of the Manual, if an individual elects to receive hospice care, he or
she must file an election statement with a particular hospice. An election may also be filed by a
representative acting pursuant to State law. With respect to an individual granted the power of
attorney for the patient, State law determines the extent to which the individual may act on the
patient’s behalf.

Pursuant to section 4305.3 of the Manual, the election statement must include the following
items of information: identification of the particular hospice that will provide care to the
individual; the individual’s or representative’s acknowledgement that he or she has been given a
full understanding of hospice care; the individual’s or representative’s acknowledgement that he
or she understands that the Medicaid services listed in § 4305.2 are waived by the election; the
effective date of the election; and, the signature of the individual or representative.

The services that must be waived pursuant to section 4305.2 are:

    	 Hospice care provided by a hospice other than the hospice designated by the individual
       (unless provided under arrangements made by the designated hospice); and

    	 Any Medicaid services that are related to the treatment of the terminal condition for
       which hospice care was elected or a related condition or that are equivalent to hospice
       care except for services—

                - Provided (either directly or under arrangement) by the designated hospice;

                - Provided by the individual’s attending physician if that physician is not an
                employee of the designated hospice or receiving compensation from the hospice
                for those services; or

                - Provided as room and board by a nursing facility if the individual is a resident.

Pursuant to the CMS Medicare Benefit Policy Manual, Chapter 9, § 20.3, a beneficiary who is
dually eligible must elect both Medicare and Medicaid hospice benefits if the State offers
hospice benefit under its Medicaid program.




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)          9
OHIO HOSPICE REIMBURSEMENT AND ELECTION FORM REQUIRMENTS

Ohio regulations state that when the consumer is a resident of a nursing facility, the hospice shall
be reimbursed for room and board….To receive reimbursement, the hospice must bill the State
agency the amount equal to ninety-five per cent of the Medicaid nursing facility per diem rate as
obtained from the nursing facility (chapter 5101:3-56-06 (C)(1) of the Ohio Administrative
Code).

Ohio regulations state that if the consumer is enrolled or becomes enrolled in Medicare, the
consumer must elect the Medicare hospice benefit at the same time that the Medicaid hospice
benefit is elected in order to assure that Medicaid is the secondary payor (chapter 5101:3-56-02
(A)(3) of the Ohio Administrative Code).




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00087)       10
                                APPENDIX C: STATE AGENCY COMMENTS 




                         •           Department of

        0              10            Medicaid 

                                    John R. Kasich, Governor
                                    John B. McCarthy, Director



      April 28, 2014

      Ms. Sheri L. Fulcher 

      Office of Audit Services, Region VI 

      233 North Michigan, Suite 1360 

      Chicago, IL 6060 I 


      Re: Report Number A-05-12-00087

     Dear Ms. Fulcher,

     Please accept this letter as Ohio's response to the draft OIG Audit report listed above. Ohio concurs with the
     recommendations identified in the report. Ohio's response is included below.

     Recommendation: Ensure that hospice claims are processed correctly and adjusted when necessary, to meet Medicaid
     reimbursement requirements.

     Nature of corrective ac tion: Ohio will implement system edits by December 31, 2014 to ensure hospice claims are
     processed correctly and meet Medicaid reimbursement requirements. By the end of20 14, Ohio will also reduce incorrect
     hospice claims by implementing semi-annual reviews of hospice payments. l11ese reviews will check to ensure the
     following:
             • use of the correct nursing facility rate;
             • use of the correct patient Iiabil ity amount; and
             • compliance with hospice payment methodology.

     Recommendation: Monitor hospice to ensure that Federal and State requirements are met with regard to election
     statement content

     Nature of corrective action: By the end ofcalendar year 2014, Ohio will conduct semi-annual reviews of election
     statements to ensure compliance with Federal and State requirements.

     Recommendation: Establish a uniform election statement to be used state-wide by all hospices and ensure that all
     required language is included in the statement

     Nature of corrective action: Ohio will implement a standardized federally compliant election statement and will require
     use by all Hospice providers by the end of calendar year 2014.

     Thank you for your report. We look forward to collaborating with you on future endeavors.

     Sincerely,

   ~ <IJ- ('A~u~
    John B. McCarthy 

    State Medicaid Director 

                                                         SOW.Town Streel, Suita 400
                                                           Columbus. Ohio 43215

                                              An Equill Opponuni!y Emoloyor and Service Provider




Ohio Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (4 -05-12-00087)                                  II
